HHS/OIG, Audit - "Audit of Whitman-Walker Clinic's Adequacy of Patient
Care," (A-03-05-00207)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Audit of Whitman-Walker
Clinic's Adequacy of Patient Care," (A-03-05-00207)
August 30, 2006
Complete Text of Report is available in PDF format (214 kb). Copies can also be obtained by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
Our objective was to determine if an allegation submitted to the Office of Inspector General that the Whitman-Walker Clinic conducted medically unnecessary and time-consuming testing procedures that contributed to the medical deterioration and eventual death of an AIDS patient could be substantiated. There was no evidence to substantiate the allegation. The tests performed for the patient were both necessary as a basis for treatment and conducted within acceptable timeframes. Accordingly, there were no recommendations as a result of this audit.